GR-80-98-030
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Grants to Encourage Arrest Policies Program 
Administered by the Jefferson County District Attorney's Office,
Colorado
 GR-80-98-030
August 19, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
Grants to Encourage Arrest Policies Program, Grant No. 97-WE-VX-0067, administered by
the Jefferson County District Attorney's Office (Jefferson County), for the period of
March 1, 1997, through August 31, 1998. The $576,399 grant, awarded by the Office of
Justice Programs (OJP), is effective from March 1, 1997, through August 31, 1998.
Generally, Jefferson County properly managed the grant. Based on information provided
by the grant officials, we determined that the grant objectives had been implemented.
However, we identified the following concerns:


- Jefferson County did not receive, verify, or maintain supporting documentation for
    billings submitted by agencies participating under the grant. As a result, participating
    agencies were reimbursed $9,720 in unsupported costs.
- Jefferson County did not timely submit Financial Status Reports for the periods ended
    March 31, 1997, and December 31, 1997.
- Jefferson County overstated total program outlays and total Federal share of outlays
    on the Financial Status Report for the period ended March 31, 1998, by $24,485 and
    $46,507, respectively. 


 
#####